NO. 20-5308

In the Supreme Court of the United States

Tammy Horton,
Petitioner - Pro Se,
vs.
Methodist University,
Respondent.

PROOF OF SERVICE

I, Tammy Horton, do declare that on this date, December 7, 2020, as required by
Supreme Court Rule 29. 1 have served the enclosed Reply each party to the above proceeding or
that party’s counsel, and on every other person required to be served, by depositing an envelope
containing the above documents in the UPS mail properly addressed to each of them with
prepaid for delivery within 3 days.
The names and addresses of those served are as follows:
Daniel M. Nunn
dunn@caudlespears.com
Christopher P. Raab
craab@caudlespears.com

CAUDLE & SPEARS, P.A.
121 West Trade Street, Suite 2600
Charlotte, North Carolina 28303-5399
Telephone:
704-377-1200
Facsimile:
704-338-5858
Attorney’s for the Respondent

I declare under penalty of perjury that the foregoing is true and correct . Executed on December
7,2020.

Tammy Horton, Petitioner - Pro Se
3170 Bethel Baptist Road
Spring Lake, North Carolina 28390

